          OFFICE OF INSPECTOR GENERAL

                                    Catalyst for Improving the Environment



Evaluation Report




          EPA’s Method for Calculating
          Air Toxics Emissions for Reporting
          Results Needs Improvement

          Report No. 2004-P-00012


          March 31, 2004
Report Contributors:                                  Patrick Milligan
                                                      Frank Martinsky
                                                      Lorraine Fleury
                                                      Michelle Brown




Abbreviations

EIIP                    Emission Inventory Improvement Program

EPA                     Environmental Protection Agency

GPRA                    Government Performance and Results Act

MACT                    Maximum Achievable Control Technology

NTI                     National Toxics Inventory

OAR                     Office of Air and Radiation

OIG                     Office of Inspector General

OMB                     Office of Management and Budget

ORD                     Office of Research and Development

OTAQ                    Office of Transportation and Air Quality




Photo (clockwise, from top left): (1) Cars and trucks emitting exhaust fumes
(weathersmith.com); (2) forest fire burning uncontrolled (US Forest Service web site);
(3) agricultural equipment emissions (weathersmith.com); and (4) pollution from an industrial
smokestack (New York State Department of Environmental Conservation).
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                         March 31, 2004

MEMORANDUM

SUBJECT:            EPA’s Method for Calculating Air Toxics Emissions for
                    Reporting Results Needs Improvement
                    Report No. 2004-P-00012

FROM:               J. Rick Beusse /s/
                    Director for Program Evaluation, Air Quality Issues

TO:                 Jeffrey R. Holmstead
                    Assistant Administrator for Air and Radiation (6101A)

Attached is our final report regarding the Environmental Protection Agency (EPA) efforts to
develop air toxics emissions data for use as a Government Performance and Results Act
performance measure. This report contains findings regarding EPA’s methods for calculating air
toxics emissions. Also, the report contains corrective actions the Office of Inspector General
(OIG) recommends. This report represents the opinion of the OIG and the findings contained in
this report do not necessarily represent the final EPA position. Final determination on matters in
this report will be made by EPA managers in accordance with established procedures.

EPA’s Office of Air and Radiation (OAR) provided us with a draft response on March 24, 2004,
that included comments from the OAR’s Office of Air Quality and Planning Standards and
OAR’s Office of Transportation and Air Quality. Also, officials from the Office of Research and
Development (ORD) provided draft comments. Because these responses are draft and may not
represent EPA’s final position on the issues and recommendations in this report, the draft
responses are not included as appendices in this report.

Action Required

In accordance with EPA Manual 2750, as the action official, you are required to provide this
office with a written response within 90 days of the final report date. Since this report deals
primarily with OAR’s Air Toxics Program, the Assistant Administrator for Air and Radiation
was designated the primary action official. As such, he should take the lead in coordinating the
Agency’s response. The response should address all recommendations. For the corrective
actions planned but not completed by the response date, please describe the actions that are
ongoing and provide a timetable for completion. If you do not concur with a recommendation,
please provide alternative actions addressing the findings reported. We appreciate the efforts of
EPA officials and staff, as well as external stakeholders, in working with us to develop this
report. For your convenience, this report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (919) 541-5747
or Patrick Milligan, Assignment Manager, at (215) 814-2326.
                      Executive Summary
Purpose
           Toxic air pollutants are harmful substances that are known or suspected to cause
           cancer and other serious health problems, and can also have adverse environmental
           effects. The Clean Air Act identifies 188 toxic air pollutants and directs EPA to
           regulate the sources emitting these pollutants.

           EPA has been tasked with reducing toxic air pollutants and the resulting health
           effects. The Government Performance and Results Act (GPRA) of 1993 required
           EPA, like other Federal agencies, to measure progress in achieving results. EPA
           measures progress of its Air Toxics Program by calculating how many tons of
           emissions are reduced annually. A vital component for assessing progress and
           directing future efforts of the program is the National Toxics Inventory (NTI), an
           estimate made once every 3 years of the total amount of air toxics emitted annually
           nationwide. Accordingly, our objectives were to answer the following:

            •   What are the key assumptions and limitations underlying EPA’s NTI and how
                do these impact its use as a GPRA performance measure?

            •   What actions could EPA take to improve its current air toxics GPRA
                performance measure for assessing progress toward achieving the air toxics
                objective?

Results in Brief
            Although the methods by which air toxics emissions are estimated have improved
            substantially in the past 6 years, unvalidated assumptions and other limitations
            underlying the NTI continue to impact its use as a GPRA performance measure. As
            a result, EPA is not certain how much progress stationary, area, and mobile sources
            have actually made in reducing air toxics emissions from the EPA-established 1993
            baseline. For example, EPA recently finalized its third NTI, which also resulted in
            revisions to the first two inventories:

            •   For the 1993 baseline NTI, EPA increased the estimated emissions inventory
                from 6.1 million tons to 7.2 million tons (an 18-percent increase).
            •   For the 1996 NTI, EPA increased the estimated emissions inventory from
                4.6 million tons to 5.0 million tons (a 9-percent increase).
            •   For the 1999 NTI, EPA estimated 5.1 million tons, an increase of 100,000 tons
                when compared to the updated 1996 inventory.

            EPA is not certain whether reductions or increases may have resulted due, at least in
            part, to the Agency’s change in the way it estimated the inventory, rather than real
            reductions or increases in emissions. While emissions estimating techniques have

                                             i
         improved, broad assumptions about the behavior of sources and serious data
         limitations still exist. Furthermore, due to the changes that resulted in
         improvements in later inventories, the meaningfulness of comparing new
         inventories against the 1993 baseline is questionable. For example, although State-
         validated emissions data is EPA’s preferred calculation methodology:

         •   For the 1993 baseline NTI, only three States provided data to EPA.
         •   For the 1996 NTI, 36 States provided data to EPA.
         •   For the 1999 NTI, 39 States provided data to EPA.

         Additionally, States were not required to verify their emissions data for any of the
         above inventories, due largely to EPA’s concerns about adding more reporting
         requirements on States and the lack of a clear statutory mandate. Agency officials
         said that the Clean Air Act only required limited scope studies on a select number of
         toxic air pollutants found primarily in urban areas. As such, only 33 of the 188 air
         toxics have received more in-depth study. Also, despite some improvements in
         emissions estimating techniques for certain sources of air toxics, available usage
         estimates and emission factors often are not reliable. Further improvements are
         needed in the methods for calculating air toxics emissions if EPA is to accurately
         gauge the extent to which its programs have actually reduced emissions. Otherwise,
         EPA cannot be assured that the full reductions actually occurred or were, at least in
         part, the result of changes in estimation methods.

         EPA could also improve its current air toxics GPRA performance measure by
         including toxicity information with tonnage measures. Currently, EPA aggregates
         the tonnage reductions of emissions for all 188 toxic air pollutants but does not
         account for the varying levels of toxicity among these pollutants. While useful, this
         aggregate measure does not provide EPA, Congress, or the public with specific
         information on those pollutants that are the most dangerous to human health.
         During the course of our work, EPA officials told us that they see merit in adding a
         risk component to their GPRA reporting, and they recently began exploring
         possibilities for doing so. This supplemental measure would better enable EPA to
         track its progress in reducing those air toxics that are most harmful to human health
         and, in so doing, more closely meet the intent of GPRA.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation improve the
         accuracy, reliability, and usefulness of the Agency’s current emissions-based air
         toxics GPRA performance measure by providing increased funding and support for
         development of the NTI, and supplement the existing measure of comparing air
         toxics emissions reductions to the 1993 baseline inventory by also comparing
         emission totals between all other completed inventories. We also recommend that
         the Assistant Administrator supplement the existing tonnage measure for air toxics
         with a measure of progress toward reduction in human exposure and health risk.


                                          ii
Agency Comments and OIG Evaluation

         Officials from the Office of Air and Radiation (OAR) and the Office of Research and
         Development (ORD) provided detailed draft comments on the report. Because these
         responses are draft and may not represent the Agency’s final position on the issues
         and recommendations in this report, the draft responses are not included as
         appendices to this report. Nonetheless, we made changes to the draft report based on
         both sets of draft comments, as well as our exit conference discussions with Agency
         officials.

         OAR’s detailed draft comments agreed with the recommendations in this report, with
         one exception. OAR intends to continue using the 1993 NTI as the baseline, instead
         of implementing our recommendation to use the more reliable 1996 NTI as the
         baseline for measuring progress under GPRA. Agency officials explained that if
         EPA were to use the 1996 NTI as the baseline, it would not enable them to capture
         the emissions reductions achieved by stationary and mobile source standards
         implemented between 1993 and 1996. While we recognize this point, we continue to
         believe that, due to the unreliability of the 1993 NTI, EPA should use the 1996 NTI
         as the baseline. Additional discussion of this point is provided at the end of
         Chapter 2.

         With regard to ORD, officials of this office concurred with our draft report
         recommendations, stated that the draft report was reasonable, and provided several
         detailed comments intended to sharpen the quality and accuracy of the report. These
         changes were made.




                                           iii
iv
                                         Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1

          2         Improvements Needed to Air Toxics Inventory
                    for Use in GPRA Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              7

          3         GPRA Measure Needs to Address Risk of Air Toxics Exposure . . . . . . . . . . 23




 Appendix
         A          Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

         B          EPA’s Recent Update to the 1993 and 1996 Inventories . . . . . . . . . . . . . . . . . 29

         C          Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                                                                       v
                                Chapter 1
                                Introduction
Purpose

          Toxic air pollutants are harmful substances that are known or suspected to cause
          cancer and other serious health problems, and can also have adverse environmental
          effects. The Clean Air Act identifies 188 toxic air pollutants and directs EPA to
          regulate the sources emitting these pollutants.

          EPA has been tasked with reducing toxic air pollutants and the resulting health
          effects caused by exposure to these pollutants. The 1993 Government Performance
          and Results Act (GPRA) required EPA, like other Federal agencies, to measure
          progress in achieving results. EPA measures progress of its Air Toxics Program by
          calculating how many tons of air toxics emissions are reduced annually. A vital
          component for assessing progress and directing future efforts of the program is the
          National Toxics Inventory (NTI), an estimate made once every 3 years of the total
          amount of air toxics emitted annually nationwide. Accordingly, our objectives were
          to answer the following:

          •   What are the key assumptions and limitations underlying EPA’s NTI and how
              do these impact its use as a GPRA performance measure?

          •   What actions could EPA take to improve its current air toxics GPRA
              performance measure for assessing progress toward achieving the air toxics
              objective?

Background

          What Are Adverse Health Effects of Air Toxics?

          Toxic air pollutants are known or suspected to cause various serious health
          problems. The adverse health effects include: increased risk of cancer; effects on
          the neurological, cardiovascular, respiratory, and immune systems; liver and kidney
          damage; and effects on fetal and child development.

          Immediate effects of toxics exposure may be minor, such as watery eyes; greater
          health problems, such as cancer, may not appear until years after exposure. In
          addition to exposure through breathing air toxics, some toxic air pollutants, such as
          mercury, can deposit onto soils or surface waters, where they are ingested by plants
          and animals and eventually transmitted through the food chain. Exposure to some
          air toxics before birth or during childhood may interfere with normal development,
          while other air toxics may affect the ability to conceive or give birth to a healthy
          child. Studies have found that exposure to benzene from less than 5 years to more

                                           1
                 than 30 years has resulted in individuals developing and ultimately dying from
                 leukemia. Studies of smelter workers identified an association between
                 occupational arsenic exposure and lung cancer mortality.

                 Where Do Air Toxics Come From?

                 Air toxics come from a complex variety of sources, which poses a challenge to EPA
                 when it compiles the air toxics emissions inventory. For example, toxic air
                 pollutants include benzene, which is found in gasoline; perchlorethlyene, which is
                 emitted from some dry cleaning facilities; and methylene chloride, which is used as
                 a solvent and paint stripper by a number of industries. Toxics coming from other
                 sources include asbestos; dioxin; toluene; and metals such as cadmium, mercury,
                 chromium, and lead compounds. Table 1.1 describes some of the types of sources
                 emitting air toxics and the amount of emissions estimated to be generated by each
                 category of sources, according to EPA’s 19931 baseline inventory.

                                            Table 1.1: Categories of Sources of Air Toxics

                         Source                                                               Examples of Types             1993 Baseline
                         Categories                           Definition                         of Sources                (in million tons)

                   I     Major               Emissions of 10 tons per year or more           Utilities, Refineries,               2.7
                                             of any one hazardous air pollutant, or          Car Manufacturers,
                                             25 tons per year or more of any                 Chemical
                                             combination of hazardous pollutants             Manufacturers

                   II    Area *              Emissions of less than 10 tons per year         Dry Cleaners,                        1.1
                                             of any one hazardous air pollutant, or          Gas Stations,
                                             less than 25 tons per year of any               Wood Burning Stoves
                                             combination of hazardous pollutants

                   III   Mobile
                         A. On-road          Emissions from motorized vehicles               Cars, Buses, Sport           1.7
                                             normally operated on public roadways            Utility Vehicles, Light-
                                                                                             & Heavy-Duty Trucks

                         B. Non-road         Emissions from a diverse collection of          Construction and              .6
                                             engines, equipment, vehicles, and               Agricultural
                                             vessels                                         Equipment,
                                                                                             Personal Watercraft

                              Subtotal                                                                                            2.3

                         Total Emissions                                                                                          6.1 **
                 * Area sources include a sub-category entitled “Other” for those sources that are not otherwise regulated, such as wildfires
                 and open burning.
                 ** This total represents the 2002 version of the 1993 baseline NTI .




                 The 1993 toxics emissions inventory is the baseline measure EPA selected to gauge
                 progress for the Air Toxics Program.




        1
         A large part of the 1993 baseline inventory is based on data obtained from 1990 and 1993. For simplicity,
and because EPA has traditionally referred to it as such, we refer to this data as the 1993 baseline inventory.

                                                                   2
                  What Are the Air Toxics GPRA Goals and Measures?

                  GPRA, passed in 1993, holds Federal agencies accountable for achieving results by
                  requiring them to measure program outcomes, including for EPA’s Air Toxics
                  Program. By 1997, GPRA required agencies to establish outcome goals to measure
                  their progress and report on their accomplishments. The three main components of
                  GPRA require EPA to: (1) develop a 5-year strategic plan defining its long-term
                  goals and how the Agency intends to achieve them; (2) prepare annual performance
                  plans with goals and measures that relate to either outputs or outcomes that
                  quantitatively measure the Agency's results and demonstrate their linkage to
                  longer-term goals; and (3) prepare annual performance reports on accomplishments.
                  As shown in Table 1.2, EPA’s Strategic Plan objective for the Air Toxics Program
                  (updated every 3 years) relies on emission reductions.

                                          Table 1.2: Strategic Plan Objectives for Air Toxics

                    Year                                              Objective                                                Budget
                    1997       By 2010, reduce air toxics emissions by 75 percent from 1993 levels to                             (a)
                               significantly reduce the risk to Americans for cancer and other serious
                               adverse health effects caused by airborne toxics.
                   2000        By 2020, EPA will eliminate unacceptable risks of cancer and other                           $95 million
                               significant health problems from air toxics emissions for at least                           (17% of Air
                               95 percent of the population, with particular attention to children and                      Budget)
                               other sensitive subpopulations, and substantially reduce or eliminate
                               adverse effects on our natural environment.
                    2003       By 2010, working with partners, reduce air toxics emissions and                              $118 million
                               implement area-specific approaches to reduce the risk to public health                       (19% of Air
                               and the environment from air toxic pollutants.                                               Budget)
                  (a): EPA’s air toxics budget request for 1997 was not comparable to 2000 and 2003; the total air program budget request
                       for 1997 was $304 million.


                  What Is the Air Toxics Emissions Inventory?

                  EPA compiles an NTI every 3 years that consists of an estimate of the total
                  emissions of the 188 air toxics identified in the Clean Air Act. Table 1.3 depicts the
                  years for which four inventories were or are in the process of being developed and
                  when each was completed.
                                      Table 1.3: Air Toxics Emissions Inventories Undertaken
                                           Inventory Year 2                    Initial Year Inventory Completed
                                                  1993                                           1998
                                                  1996                                           2001
                                                  1999                                           2003
                                                  2002                                       In progress




         2
          EPA referred to the 1993 and 1996 inventories as the NTI. For the 1999 inventory, EPA combined the air
toxics inventory with the criteria pollutant emissions inventory and changed the name to the National Emissions
Inventory, or NEI. For purposes of this report, we will refer to all 3 inventories (1993, 1996, and 1999) as the NTI.

                                                                  3
                 Chart 1.1 provides a scheduled timeline of key steps in developing the 1999 air
                 toxics inventory, which took place after 1999 ended.

                                                                 Chart 1.1: Scheduled Timeline for Developing 1999 Toxics Inventory


                                                                             Scheduled Timeline for 1999 Toxics Inventory(a)
                                                                   2000                      2001                      2002                   2003
                                                            Q1    Q2 Q3      Q4    Q1      Q2 Q3        Q4     Q1     Q2 Q3        Q4    Q1    Q2 Q3
                 Key Steps Involved in Developing the NTI


                                                                    States send Surveys to Point Sources

                                                                          Federal Agencies develop activity data - VMT

                                                                                        States quality control and record data

                                                                                                     EPA receives first reported data

                                                                                                              EPA prepares draft Inventory

                                                                            Reviewer's comments

                                                            EPA receives new data, along with comments

                                                                            EPA prepares second draft Inventory

                                                                            2nd Round of comments and Inventory revisions


                (a) Development of the NTI begins after the designated year has ended.



                 In addition to the activities listed in Chart 1.1, State and other Federal agencies must
                 obtain data from other sources (such as the Federal Highway Administration, which
                 provides EPA with information on national vehicle miles traveled for the inventory
                 year). These data are not available until a year or so after the inventory year has
                 ended. After the new inventory is developed, EPA compares it to the 1993 baseline
                 inventory to determine the amount of emissions reductions achieved. Although the
                 1993 and 1996 inventories took over 4 years to complete, EPA hopes to reduce this
                 time in the future.

                 What Are The Uses of the Inventory?

                 Although EPA is in the early stages of developing an ambient (outdoor) air toxics
                 monitoring network3 capable of measuring air toxics in ambient air on a national
                 basis, the Agency does not yet have a formal network and therefore relies primarily
                 on emissions data for measuring progress. The NTI is the primary source of
                 national air toxics emissions data used by major stakeholders – such as scientists,
                 researchers, lawmakers, and the public – to gauge progress. Uses of the NTI
                 include rulemaking efforts, modeling, and risk assessments. More details on the
                 NTI are in Chapter 2.



        3
          EPA’s National Air Toxics Trends Sites (NATTS) network consists of 22 sites. Agency officials said that
they plan to implement the network in fiscal year 2004.

                                                                                                    4
Scope and Methodology

          To assess the adequacy of EPA’s GPRA measure for air toxics, we reviewed
          documentation related to: GPRA objectives and measures; the development of the
          1993, 1996, and 1999 inventories; Quality Assurance/Quality Control efforts for the
          development of the three inventories; and regulations, guidance, policy, and
          assessments applicable to the development of the inventories. We also conducted
          numerous interviews with officials from: the Office of Air Quality Planning and
          Standards, the Office of Transportation and Air Quality, EPA Region 3, and the
          Office of Research and Development (ORD). Budget information was obtained
          from the Office of the Chief Financial Officer. We also reviewed Section 112 of the
          Clean Air Act to identify the requirements of EPA to identify, control, and reduce
          air toxics emissions.

          Our field work was conducted from February 2003 to November 2003. We
          conducted this evaluation in accordance with Government Auditing Standards,
          issued by the Comptroller General of the United States. Additional details on our
          scope and methodology are in Appendix A. On March 30, 2004, we met with
          Office of Air and Radiation (OAR) officials to discuss their draft comments and we
          made additional modifications to the report based on our discussions.




                                          5
6
                                  Chapter 2
      Improvements Needed to Air Toxics Inventory
             for Use in GPRA Reporting
           Although the methods used to estimate air toxics emissions have improved
           substantially in the past 6 years, EPA is not certain of how much progress
           stationary, area, and mobile sources have actually made in reducing those
           emissions. Emissions estimating techniques have undergone continuous change and
           improvement since the 1993 baseline was developed, and because subsequent
           inventories were amassed quite differently, comparison to the 1993 baseline has
           become less meaningful over time. For example, only 3 States provided data for the
           1993 baseline, while 36 and 39 States provided data for the 1996 and 1999
           inventories, respectively. Of 62 authorized local programs, only one reported air
           toxics emissions data for 1993; three for 1996; and nine for the 1999 inventory.
           Even with increased State and local agency participation, these agencies have not
           been required to report air toxics emissions data, nor have they been required to
           verify it. Further, despite improvements in estimation techniques, usage estimates
           and emission factors often are not reliable. Due to the limitations noted, EPA
           cannot be assured that the full amount of reductions reported actually occurred or
           whether they were, at least in part, the result of improved estimation methods.
           Improvements in the methods for calculating air toxics emissions are needed if the
           Agency is to accurately gauge the extent to which its programs have reduced the
           public’s health risk to air toxics as called for under GPRA.

Difficulties in Comparing EPA’s Air Toxics Emissions Inventories

           To develop major and area source emission estimates, EPA primarily uses four
           types of data (listed in order of preference based on data reliability):

           •   State, Local, and Tribal-Submitted Data: State, local, and tribal agencies, on
               a voluntary basis, submit air toxics emissions data.

           •   Maximum Achievable Control Technology (MACT)/Residual Risk: Each
               time EPA develops a control for a source category (a source of air toxics), it
               gathers emissions data.

           •   Toxics Release Inventory: This is an EPA-managed database used to inform
               the public and government officials about the total release and transfer of toxic
               chemicals, and is based on information reported by a select group of industries.

           •   National Estimates: When State information is not available, EPA estimates
               emissions on a national level and allocates down to a local (county) level.



                                             7
            Although States have not been required to validate or even report air toxics
            emissions data, EPA considers State-submitted data to be the most reliable. In its
            absence, the Agency uses the less reliable MACT, Toxics Release Inventory, and
            national estimates. EPA also uses data gathered from mobile source rulemaking
            efforts, industry surveys, and other Federal agency information, such as vehicle
            mileage data from the Federal Highway Administration, each with its own set of
            limitations. Table 2.1 provides a brief qualitative assessment of the sources of
            information used for each triennial inventory, highlighting the significant changes
            made to more recent inventories.

                             Table 2.1: Key Differences in the Three Inventories

             Sources of             1993
             Pollution             Baseline                           1996                             1999

             Major        3 States and 1 local agency     36 States and 3 local             39 States and 9 local
                          provided data; few quality      agencies reported data -          agencies reported data -
                          checks performed. EPA           46 States reviewed the data.      46 States reviewed the
                          used less reliable data such    Quality check efforts made to     data. For the first time,
                          as MACT, Toxics Release         eliminate duplicate or            3 tribal agencies reported
                          Inventory, and national         missing facilities. MACT and      data. Some additional
                          estimates. (Mainly non-         Toxics Release Inventory          quality checks performed
                          facility specific data          used less. Estimates based        on data. MACT and
                          aggregated up to the county     on point emissions.               Toxics Release Inventory
                          level.)                                                           used even less.

             Area         Emission estimates largely      Began to use more State and       Some area source
                          based on national activity      MACT data for non-point           locations identified and
                          data and national emission      sources. Emission estimates       tracked. Improved use of
                          factors. Emissions allocated    still largely based on national   non-point source data.
                          down to the county level.       activity data and national
                                                          emission factors.

             Mobile       Five toxics estimated using     On-road model (MOBILE 5b)         New on-road model
             (On-Road)    early on-road model, while      used for all toxics estimates.    (MOBILE 6) accounts for
                          other toxics calculated using   Fuel types accounted for.         many variables such as
                          less sophisticated methods.                                       vehicle type, vehicle
                          Fuel types not accounted for.                                     speed, road type, and fuel
                                                                                            types.

             Mobile       Emissions estimated using       New model (NONROAD)               Equipment-type
             (Non-Road)   non-road study of emissions.    developed to more                 information again
                          This study was first attempt    accurately depict types of        improved. Model
                          at identifying non-road         equipment. Much of the            (updated NONROAD) also
                          equipment types. Much of        activity data and emission        attempted to account for
                          the activity data and           factors still unverified. Fuel    changes in engine power
                          emission factors unverified.    types partially accounted for.    levels related to pollution.
                          Fuel types partially                                              Much of the activity data
                          accounted for.                                                    and emission factors still
                                                                                            unverified. Fuel types
                                                                                            partially accounted for.




Limitations of the Air Toxics Inventories

            For the 1993 baseline inventory, EPA received very little State participation. Over
            the past 10 years, States have progressively submitted more toxics emissions data,
            of increasingly improved quality. EPA officials said that, due primarily to States’
            increased awareness and need for toxics emissions data for purposes other than the
            inventory, the States wanted to rely more on their own estimates than the estimates

                                                   8
generated by EPA. Some of the assumptions and limitations associated with the
1993, 1996, and 1999 inventories are discussed below.

1993 Baseline Inventory

EPA developed the 1993 baseline (the 1993 NTI) as a repository of information
collected by EPA to meet the requirements of Clean Air Act Sections 112(c)(6) and
112(k), which required limited scope studies on a select number of toxic air
pollutants found in urban areas. In total, EPA studied 33 of the 188 air toxics as a
starting point for developing the NTI, but recognized that there were information
gaps.

Because EPA’s authority to require States to report air toxics emissions was limited,
only three States and one local agency provided useable input to the 1993 emission
estimates. For the remaining 47 States and 61 local agencies that did not submit air
toxics emissions information, EPA’s only viable option was to use national data and
apportion it down to the county level (the “top-down” approach). Sources of this
national data included the EPA-developed national estimates and information
gathered from the development of the MACT standards. Because studies have
found that air toxics often are a localized problem, the top-down approach is
considered one of the least desirable methods because it does not accurately depict
local variations.

Subsequent to developing the 1993 baseline, EPA sometimes revised the baseline
when it received more accurate 1993 information. However, Agency officials stated
that due to limited resources and because the baseline inventory is only an estimate,
their efforts are typically geared toward obtaining better data for current and future
air toxics inventories rather than updating the 1993 baseline.

1996 Inventory

For the 1996 inventory, some of gaps in the 1993 baseline inventory were filled to
provide a more complete picture of air toxics emissions. As compared to the 1993
baseline inventory, EPA used fewer top-down approaches because 36 States and
3 local agencies submitted air toxics emissions estimates, and MACT and Toxics
Release Inventory data was used for the remaining 14 States and 59 local agencies
that did not submit air toxics emissions information. However, there was still not
full State and local participation for reporting, and the State and local figures
provided were not verified by EPA. Further, the 1996 emission estimates for the
Area and Mobile Non-Road sources of pollution were still largely based on national
activity data and emission factors.




                                 9
           1999 Inventory

           For the 1999 inventory, 39 States, 9 local agencies, and 3 tribal agencies submitted
           emissions estimates, and there were improved Quality Assurance/Quality Control
           efforts by EPA and the States, who performed the following four activities:

           •   States used a Quality Control formatting tool for file format and data field
               verification prior to sending the estimates to EPA.
           •   EPA used a software tool to identify duplicate facilities.
           •   EPA sent States draft summaries of emission data for States to review for
               accuracy and completeness.
           •   EPA performed Quality Assurance/Quality Control checks to identify gross
               errors with the emission estimates.

           However, there are still limitations with the 1999 NTI. EPA once again had to use
           MACT, Toxics Release Inventory, or apportion emissions in a top down manner for
           the 11 States and 53 local agencies that did not submit air toxics emissions
           information. Also, Agency officials said that the Quality Assurance/Quality Control
           check was designed to identify emission estimates substantially outside the
           historical range of reported emissions. These checks are not used to identify
           inconsistencies reported from independent sources of data or against national
           estimates. Additionally, these checks do not include sampling State data to verify
           the adequacy of emission estimation methodologies. These additional checks would
           substantiate State-reported data.

Progress In Reducing Emissions Uncertain

           As shown in Chart 2.1, as of September 2003, the 1993 baseline inventory indicated
           that a total of 6.1 million tons of toxics emissions was released in 1993, while the
           1996 inventory indicated that a total of 4.6 million tons of toxics emissions was
           released in 1996, or total reductions of 1.5 million tons. Recently EPA finalized the
           1999 inventory, which showed 5.1 million tons of emissions, or an increase of
           500,000 tons when compared to the 1996 inventory. However, this reduction (1993
           to 1996) and this increase (1996 to 1999) may have resulted due, at least in part, to
           EPA’s change in the way it estimated the inventory, rather than a real reduction in
           emissions. EPA was unable to provide us with reliable data that would accurately
           show how much air toxics emissions were actually reduced from 1993 to 1996, and
           how much of the reported change may have been due to a change in methodology.




                                            10
                                          Chart 2.1:
             Emissions for the 1993, 1996 and 1999 NTIs
                                     (in millions of tons)


             0.6
 Non-road                             Non-road                          Non-road
                   9.8%                         0.9                                 0.8
                                                19.6%          1.2                  15.7%      1.3
     1.7                    2.7                                26.1%                           25.5%
     27.9%                  44.3%                                           1.4
                                              1.4              1.1          27.5%             1.6
                    1.1                       30.4%            23.9%
                    18.0%                                                                     31.4%


On-road                             On-road                            On-road
                 1993                                   1996                            1999
               Total: 6.1                             Total: 4.6                      Total: 5.1




                             Major                      Area            Mobile




  EPA credited the 1.5-million-ton reduction to its programs designed to control air
  toxics emissions. Almost all of these reductions occurred in the major source
  category, where emissions decreased from 2.7 million tons in 1993 to 1.2 million
  tons in 1996. During this 3-year period, EPA issued 11 MACT standards
  representing 664,000 tons of emission reductions. However, there still remains
  836,000 tons of emissions reductions achieved by controlling sources not subject to
  MACT standards. During this same time period, EPA received improved data and
  substantially changed its method for calculating emission estimates. Specifically,
  the 1996 NTI had much more State-submitted data on major source emissions, and
  the accuracy of the mobile emission estimates improved.

  Regarding the recently completed 1999 NTI, again there is a significant change in
  the calculation methods used, which may impact the amount of emissions reported.
  For example, for the 1999 NTI, improved mobile models were used for both the
  on-road and non-road estimates, there was slight increase in State and local agency
  participation, and there were improved Quality Assurance/Quality Control efforts by
  EPA and the States. These changes in calculation methods may have caused, at
  least in part, the 500,000 ton increase in emissions from 1996 to 1999. Recent
  revisions to the 1993 and 1996 NTIs demonstrate a significant improvement in
  characterizing EPA’s progress in reducing air toxics emissions. However, this
  increase again demonstrates that EPA is not certain whether changes in the
  inventory may be due, at least in part, to the Agency’s change in the way it
  estimated the inventories.




                                                      11
           The above figures for the 1993 and 1996 inventories were used recently in key EPA
           reports to the Congress and the public on the Agency’s progress in reducing air
           toxics emissions, including:

           •   EPA’s November 2003 “FY 2003 Annual Report” to the Congress and the
               President, which serves as the Agency’s program performance report as required
               by GPRA;

           •   EPA’s August 2003 “Latest Findings on National Air Quality: 2002 Status and
               Trends Report,” which provides the public with the latest information on air
               quality nationwide; and

           •   EPA’s June 2003 “Draft Report on the Environment 2003,” which provides the
               nation with EPA’s first ever national picture of the environment and represents
               EPA’s first step at developing a set of comprehensive environmental indicators.

           However, in February 2004, after the conclusion of our field work, EPA provided us
           with revised totals for the 1993 and 1996 inventories (prior to this time, no figures
           had been provided for the 1999 inventory). For example, the Agency’s revised
           2004 estimate of the 1993 baseline is now 7.2 million tons. Appendix B provides
           further details on EPA’s recent update of the 1993 and 1996 inventories. In our
           opinion, these revised totals further substantiate our position that EPA is uncertain
           of its progress in reducing emissions and needs to improve its measures of air toxics
           progress.

Status of EPA Efforts to Improve Recent Inventories

           While improvements to estimation methods were made to the more current
           inventories, EPA acknowledges that there are still deficiencies in the estimation
           methods. These deficiencies vary from source to source and affect the reliability
           and accuracy of the data. Because development and maintenance of air toxic
           emission inventories is not explicitly required by the Clean Air Act, most of the data
           used for the emissions inventories were obtained and developed for other reasons
           and then secondarily used to compile the NTI. Below is a description of how the
           inventory is amassed and examples of the assumptions and limitations associated
           with the data for the primary source categories of pollution (major, area, and
           mobile).

           Major and Area Sources

           Because major and area source categories include stationary sources and often use
           the same data sources, they are presented together. Major sources comprised
           26 percent of the 1996 inventory, and area sources comprised 24 percent. Some
           area sources, such as wood burning stoves, cannot be cost-effectively inventoried as
           individual sources because they are comprised of a large number of sources spread
           across the country, so emissions are calculated at a national level and then allocated

                                            12
                 down to the county level. Also, some source categories have both major and area
                 emitters. For example, a small neighborhood dry cleaner may not emit enough toxic
                 emissions annually to reach the threshold of a major source, but a large regional dry
                 cleaner may reach this threshold and thus be classified a major source.

                 Following is a description of the four primary sources of information used to
                 estimate both major and area source emissions, from most reliable to least reliable.

                     State-Reported Emissions: Because there are no reporting requirements for
                     States, the data submitted by States are inconsistent and States are not required
                     to verify the accuracy of the data. To improve State data, EPA in 2000 included
                     in a proposed regulation specific reporting requirements that would standardize
                     the type of toxics data gathered by States, as well as the methods used to
                     calculate estimates. However, the proposed air toxics reporting requirements
                     were deleted from the final regulation. This was due largely to EPA’s concerns
                     about adding more reporting requirements on States, the Agency’s belief that the
                     Clean Air Act is not clear on air toxics reporting, and its belief that there would
                     be lawsuits if specific reporting requirements were imposed. Seventeen of the
                     22 State and local agencies that commented on the proposed regulation said that
                     States should be required to report air toxics emissions data. However, some
                     said they would not support increased reporting requirements without increased
                     funding. In 2003, EPA obligated approximately $181 million in Clean Air Act
                     Section 105 grant funds to States for carrying out a variety of Clean Air Act
                     goals, but the Agency did not use these funds to negotiate commitments with
                     States for consistent, validated air
                     toxics emissions data.                             The Emissions Inventory
                                                                                Improvement Program
                     EPA has also attempted to improve                The goal of the EIIP is to provide
                     air toxics emissions reporting by                cost-effective, reliable inventories by:
                                                                      • Improving the quality of emissions
                     working with the States through the                 information, and
                     Emission Inventory Improvement                   • Developing system(s) for collecting,
                                                                         calculating, and reporting emissions
                     Program (EIIP), which was intended                  data.
                     to promote the development and use               The goal is achieved by developing a set
                     of standard procedures for collecting            of "preferred and alternative methods" for
                                                                      all inventory-associated tasks. This
                     and reporting emissions data.                    standardization improves the consistency
                     Initially, this program worked to                of collected data and results in increased
                                                                      usefulness of emissions information. The
                     develop standardized methods for                 EIIP will reach its goal through
                     collecting data for both criteria4 and           development of:
                     toxic pollutants. However, EIIP                  • Preferred methods for collecting data
                                                                         and calculating emissions,
                     workgroup officials decided that                 • Improved reporting systems,
                     developing better air toxics emissions           • Procedures for quality control, and
                                                                      • More consistent documentation.
                     estimation methodologies was beyond
                     the intended scope of the workgroup


        4
          Six common air pollutants found nationwide that harm human health and the environment, called criteria
pollutants because EPA sets standards for these pollutants by first developing health-based criteria.

                                                       13
effort, and focused only on criteria pollutants. According to EPA officials,
beginning in 2004, the EIIP was no longer active because of limited funding for
the program. However, EPA officials told us that there is an ongoing
reorganization in the Office of Air Quality Planning and Standards that will
likely include a group dedicated to improving emission factors and emission
estimation methods for air toxics.

MACT: EPA initially gathered data to learn as much as possible about the
industry before a MACT emission limitation was established. In doing so, EPA
relied on many different sources of data, including: national activity data applied
to emission factors, facility level emissions reported to EPA, and facility level
emissions obtained from the Toxics Release Inventory database. Of the
70 MACT area source categories that reported emissions data:

•   19 used facility-level emissions reported to EPA.
•   36 used national activity estimates.
•   15 relied on Toxics Release Inventory data.

Only 35 of the 70 MACT area source categories calculated emission estimates
for 1996. For example, of the 19 facility level estimates reported to EPA, only
9 estimated 1996 emissions, while the remaining 10 estimated emissions for 1 or
more calendar years ranging from 1991 to 1997. For 1 of the 36 sources using
national activity data – halogenated solvent cleaners – EPA developed an
estimate of the total mass for various toxic air pollutants, but did not know how
much of each air toxic comprised the total. As a result, EPA divided the mass
equally among a list of applicable air toxics.

Toxics Release Inventory: The Toxics Release Inventory database is mandated
by the Emergency Planning and Community Response Act, which requires a
select group of industries meeting specific requirements to report toxics release
information to EPA, including releases to air, land, and water. In those instances
where EPA used the database to develop MACT standards, the Agency used this
same data for the toxics inventory. Because it was the only available
information, EPA used the database despite the significant limitations associated
with the data. Not all facilities that emit air toxics meet the requirements to
report Toxics Release Inventory emissions. As a result, some sources of air
toxics would not be identified and the emissions would not be recorded or
reported to EPA. The data is also compromised because facilities are allowed to
report reasonable but unverified estimates of toxic amounts instead of monitored
releases. Finally, calculation methods can vary annually and, as a result, some
facilities may report emission reductions not because of actual reductions but
because a different calculation method was used, which may result in EPA
overstating or understating the actual amount of reductions.




                             14
   National Estimates: When EPA
                                             Assumptions for One Source Category
   could not obtain emissions data
                                          The area source category Consumer Solvent
   from the above three activities, the   Use is an example of EPA using the national
   Agency reverted to estimating the      average methodology. Hair care products,
   emissions from these source            deodorants, perfumes, and nail care products
                                          are included in this area source category. EPA
   categories on a national scale and     compiled information from a 1992 consumer
   then allocating them down to a         product survey to develop volatile organic
                                          compound emission factors and air toxics
   local level. When national-level       emission factors. Emission factors were based
   emissions are used, it does not        on product usage and population data for the
   account for significant local          year 1990. To calculate the total emissions
                                          from these personal care products, EPA
   variations, which can have a large     developed a factor that estimates the number
   effect on the health of the local      of pounds of volatile organic compounds
                                          emitted per person during 1 year. EPA then
   population exposed to those toxic      multiplied this factor by the total U.S. population
   emissions. For example, EPA’s          to determine the total emissions from personal
   estimates assume each person in        care products, and allocated the total down to
                                          the county level based on U.S. Census Bureau
   the United States, regardless of       population statistics.
   age, sex, and other differences,
   uses the same amount of personal
   care products (see box).

When there is no data available for the year targeted based on the above four
primary sources of information, the Agency as a last resort will occasionally use
data derived from either a prior or subsequent year’s inventory. This affects the
inventory’s ability to accurately depict emissions reduction trends because, at
times, the same data are being used for multiple years.

Mobile Sources

While major stationary sources of emissions include many types of pollution-
creating equipment and processes, the number of mobile source emissions points far
exceed stationary sources in that they are produced by millions of engines of varying
types and sizes that move around the country. Due to the quantity, diversity, and
mobility of these on-road and non-road sources, sophisticated methods using
complex calculations that include a host of assumptions were developed to estimate
emissions.

Since the inception of the EPA mobile source program, EPA has historically focused
its efforts on understanding and controlling on-road emissions because they
represented the majority of the pollution from mobile sources. These efforts have
led to increased knowledge of on-road emission factors and better activity data.
EPA has made substantial progress in reducing on-road emissions through the
production of “cleaner” vehicles and the implementation of on-road vehicle control
programs. This, combined with the ever-increasing popularity of non-road sources,
has resulted in EPA becoming more concerned about non-road emissions.
Furthermore, non-road sources was the only category to show an increase in
emissions from 1993 to 1996. However, the nature of non-road sources presents

                                 15
EPA with considerable challenges, due to the large number of equipment types and
manufacturers.

   On-Road Sources: On-road mobile emissions comprised 28 percent of
   emissions for the 1993 baseline inventory. The predominant source of emissions
   in this category was gasoline-fueled automobiles. There are two general
   approaches to calculating on-road emission estimates for the 21 toxic air
   pollutants emitted by motor vehicles:

   • For 15 of the on-road air toxics emissions, estimates are derived from either
     particulate matter or volatile organic compound emissions data. For example,
     the Agency takes the particulate matter data for on-road emissions and then
     estimates how much air toxics are in those emissions. In doing so, EPA
     assumes that air toxics emissions from vehicles are directly proportional to
     vehicle particulate matter emissions.

   • For six of the on-road air toxics emissions, total vehicle miles traveled
     (obtained from the Federal Highway Administration’s database) for each class
     of vehicle are multiplied by an emission factor to develop the air toxics
     estimate.

   EPA currently develops emission estimates that account for specific vehicle
   activities, such as vehicle type and speed, and emission-related factors, such as
   ambient temperature. For example, while the 1996 mobile estimate included
   7 vehicle types and 1 vehicle speed, the 1999 estimate included 28 vehicle types
   and 12 vehicle speeds. However, with these more complex calculations come
   increased assumptions and limitations. In 2000, the National Research Council
   performed a review of EPA’s on-road model, entitled Modeling Mobile Source
   Emissions, and identified the following assumptions and limitations:

   • EPA’s selection of vehicles for testing does not sufficiently represent high-
     emitting vehicles. Emissions from high-emitting vehicles are a relatively
     small fraction of the on-road fleet, but contribute a large fraction of total
     vehicle emissions, and thus require a large sampling fraction. If high-emitters
     are not properly characterized, emission factors can be seriously biased.

   • EPA’s calculation method does not consider road-grade effects on emissions.
     Road-grade influences vehicle emissions in that higher emissions occur when
     vehicles negotiate steep road grades.

   • Light-duty truck emissions are sometimes estimated from passenger
     automobile test data, even though some trucks are regularly used as working
     vehicles, which results in higher emissions due to the increased load.

   • EPA lacks sufficient data to estimate effects of high emitters and sometimes
     fills in missing data by assuming high emitters behave the same as normal
     emitters.

                                16
The National Research Council review stated that EPA needs to better
understand and quantify the uncertainty related to sources of data used in the
model, such as the use of small and nonrepresentative emissions data. The
Council believes that the quantification of these uncertainties is critical for
understanding the weaknesses of the model and identifying the most critical
needs for improving emissions test data. In response to the Council’s findings,
EPA has initiated a $4 million test program to collect data on high-emitting
vehicles, and the Agency is developing a new model to better quantify the
uncertainty in on-road emissions estimates. In our view, these are steps in the
right direction. Nonetheless, at the present time, the Agency has limited
assurance that data reported in its GPRA performance measure is accurately
assessing progress.

Non-Road Sources: Non-road mobile emissions comprised about 10 percent of
emissions for the 1993 baseline inventory and increased to more than 19 percent,
or nearly one-fifth of the total, for the 1996 inventory. Until the mid-1990s,
emissions from these engines were largely uncontrolled. This category covers a
diverse collection of engines for equipment, vehicles, and vessels, ranging from
leaf blowers to earth-moving equipment. As compared to on-road methods,
emissions estimation methods for non-road sources are much less developed
because they lack adequate basic data. In developing non-road estimates, EPA
typically develops a usage estimate such as the number of hours a piece of
equipment operates during the year. EPA then multiplies that number by an
emission factor, which essentially calculates how much pollution is emitted for
each hour the equipment is operating. Both the non-road usage estimates and
emission factors have significant limitations.

Usage Estimates - Currently, EPA cannot verify the accuracy of the data. Usage
estimates come from a marketing research firm that gathers usage information
from equipment manufacturers through telephone surveys. The marketing
research firm takes this data and uses a proprietary process to project non-road
population totals. Because EPA cannot assess the accuracy of the process, EPA
officials expressed interest in developing their own strategy for collecting usage
data. For example, a more valid estimate would be generated if EPA could place
a monitor on equipment to measure the hours of operation to better verify the
accuracy of their data. Despite the limitation described above, EPA uses the
survey data because it is the only available source of non-road equipment usage
information.

Emission Factors - EPA officials have stated that there are few studies that have
developed toxics emission factors for non-road equipment. An emission factor
is developed by monitoring emissions from several test sites and computing an
average emission rate. However, for many of the existing studies, engine
emissions have not been tested while equipment is operated under field
conditions (see example in following box). In lieu of developing its own
emission factors, EPA has largely relied on certified emissions information

                             17
                     provided by engine manufacturers. Also, the non-road calculation does not
                     account for engine deterioration, which results in higher emissions in later years.
                     Although EPA calculates deterioration for on-road vehicles by using State
                     vehicle registration information, similar information does not exist for most non-
                     road equipment. However, EPA has
                     efforts underway to develop                        Limitations In Emission Factors
                     improved air toxics estimates for            Unlike on-road vehicles, which are tested
                     some categories of non-road                  during simulated driving operation, non-
                                                                  road engines are generally only tested in a
                     equipment. For example, EPA just             steady state mode that is not representative
                     completed a test program that                of actual operating conditions. For
                                                                  example, when a backhoe scoops a bucket
                     characterized air toxics emissions for       of soil, more horsepower than usual is
                     14 non-road diesel engines under a           needed due to the load placed on the
                     variety of operating conditions with         engine, and much more pollution is emitted.
                                                                  To account for this limitation in emission
                     different fuels, and is also testing         factors of not calculating field-like
                     2- and 4-stroke gasoline lawn and            conditions, EPA applied an adjustment
                     garden equipment at its mobile               factor to its emission estimate, although this
                                                                  adjustment factor may not be as reliable as
                     source laboratory in ORD’s                   testing the equipment when it is in
                     National Exposure Research                   operation.
                     Laboratory. According to Agency
                     officials, the efforts should result in substantial improvement in estimating air
                     toxics emissions for some categories of non-road equipment.

Additional Uses of the Air Toxics Emissions Inventory Data

                 In addition to needing quality information for reporting results in GPRA, there are
                 several other important needs for a valid, reliable, and accurate inventory of air
                 toxics emissions, such as:

                 Rulemaking Efforts - The 1993 baseline and 1996 inventory were relied upon
                 extensively in EPA’s development of the 2001 Final Mobile Rule.5 In developing
                 this rule, EPA used data from these inventories to determine the controls that would
                 be needed to reduce mobile emissions to the desired level.

                 National Air Toxics Assessment - In carrying out its National Air Toxics
                 Assessment, EPA used the 1996 NTI to develop a subset of 33 air toxics posing the
                 greatest risk to urban areas to better understand their priority as related to risk, as
                 well as their effects on the nation’s population. The emissions data were input into
                 models that projected ambient air concentrations and ultimately estimated the level
                 of human exposure to the 33 toxics. EPA then followed risk characterization
                 guidelines to estimate both the cancer and non-cancer effects. The Science Advisory
                 Board identified weaknesses in the methods used to estimate emissions (1996 NTI)
                 and determined that improved accuracy and reliability of the NTI was vital to the
                 National-Scale Air Toxics Assessment effort.

         5
          40 CFR Parts 80 and 86, Control of Emissions of Hazardous Air Pollutants From Mobile Sources; Final
 Rule, March 29, 2001

                                                       18
          Residual Risk Assessments - After industry has installed required MACT controls
          to reduce air toxics emissions, the Clean Air Act requires EPA to assess the
          remaining risks to public health. The NTI is critical to measuring the effectiveness
          of these controls. If, after 8 years from MACT promulgation (or 9 years after
          promulgation of the 2-year MACT source categories), the MACT controls have not
          reduced emissions to an acceptable risk level to protect public health with "an ample
          margin of safety," EPA must promulgate health-based standards for that source
          category to address this risk.

          Modeling - In addition to air toxics being modeled for the National-Scale Air
          Toxics Assessment effort, EPA also uses the NTI as the basis for numerous
          modeling efforts at the local and regional levels. For example, EPA will model a
          series of toxics for a community or smaller geographical area. EPA, State, and local
          agencies use such model-derived data to estimate exposures and focus limited
          resources. ORD officials also cited an additional need for air toxics data in
          attempting to understand how pollutants behave once released into the environment.

Conclusions

          EPA is likely to rely on emissions data for gauging its progress in reducing health
          risks from airborne toxics for many years to come. However, the Agency faces
          considerable challenges in improving this measure. The most reliable approach
          would be to require State and local agencies to report validated emissions once
          every 3 years. EPA proposed this approach in 2000 but did not follow through on
          this plan due to concerns about adding more reporting requirements on States, as
          well as the belief that the 1990 Clean Air Act is not clear on air toxics reporting.
          However, in our opinion, GPRA is clear in its mandate that Federal agencies
          demonstrate they are achieving results, and GPRA also provides them with the
          authority to establish appropriate measures for gauging their progress. Nonetheless,
          if EPA does not wish to include State reporting requirements in a rulemaking, the
          Agency can achieve the same results by judicious use of its Section 105 grants to
          State and local agencies.

          Regarding the other limitations discussed in this chapter, EPA currently does not
          have a systematic approach for improving air toxics emissions estimation techniques
          similar to the approach that the National Research Council recommends EPA use to
          improve its mobile model. Such an approach would allow EPA to identify the
          various uses of the inventory, and the level of accuracy needed for those uses. This
          will enable the Agency to gauge the effectiveness of the existing inventory. Further,
          EPA will be able to use this assessment to make future improvements to the
          inventory by identifying and improving the emissions estimates that have the largest
          impact on the accuracy of the inventory. We believe the Emissions Inventory
          Improvement Program has the organization, expertise, and funding to guide and
          oversee such improvements.




                                           19
          While improvements to the inventory are important to strengthening EPA’s air
          toxics GPRA performance measure, these improvements will also benefit EPA and
          the States in developing and implementing effective toxics emissions control
          strategies to protect the public from the dangers of air toxics. In addition to
          comparing reductions to the baseline inventory, the Agency should also compare
          emission totals between all other completed inventories, which would better enable
          EPA to verify the actual emissions reductions achieved. This revised approach
          would become more meaningful as future inventories are developed.

Recommendations

          In order to obtain reliable air toxics emissions data once every 3 years, we
          recommend that the Assistant Administrator for Air and Radiation:

          2-1.   Improve the accuracy and reliability of the air toxics GPRA performance
                 measure by providing increased funding and support for development of the
                 NTI by:

                 (a) requiring all authorized State and local agencies to report annually air
                     toxics emissions data for stationary, area, and mobile sources;

                 (b) developing air toxics emissions reporting policies, procedures, and
                     guidance for facilitating standardized State and local agency reporting of
                     air toxics emissions data. After the reporting requirements have been
                     imposed, use Clean Air Act Section 105 grant funds to ensure that State
                     and local agencies comply with the requirements; and

                 (c) developing more accurate emissions factors and activity data for
                     stationary, area, and mobile sources by either reviving the EIIP program
                     and utilizing the organization and expertise of this program, or by
                     establishing a similar program in-house.

          2-2.   Because of the difficulties encountered and resources involved in periodically
                 attempting to ascertain what the actual air toxics emissions totals were for the
                 1993 NTI, EPA should use the 1996 NTI as the baseline year for measuring
                 progress.

          2-3.   Supplement the existing measure of comparing air toxics emissions
                 reductions to the 1993 baseline inventory by also comparing emission totals
                 between all other completed inventories.

Agency Comments and OIG Evaluation

          Office of Air and Radiation (OAR) and Office of Research and Development (ORD)
          officials provided detailed draft comments to our draft report and, where
          appropriate, we made revisions. Because these responses are draft and may not

                                           20
represent the Agency’s final position on the issues and recommendations in this
report, the draft responses are not included as appendices to this report.
Nonetheless, we made changes to the draft report based on both sets of draft
comments, as well as our exit conference discussions with Agency officials.

Many of OAR’s comments involved changing the 1993 and 1996 NTIs to reflect
EPA’s methods and assumptions used in developing the recently issued 1999 NTI.
As shown in the report, we believe it is important to discuss the 1999 NTI and its
impact on the prior two inventories’ (1993 baseline and 1996 NTI) emission totals.
However, due to EPA’s delay in issuing the 1999 NTI, we were only able to
evaluate the factors influencing the reliability of the 1993 and 1996 inventories and,
without an in-depth examination of the factors impacting the reliability of the 1999
NTI similar to the efforts we undertook with regard to the 1993 and 1996 NTIs, we
do not believe it would be appropriate to reflect EPA’s most recent assumptions en
masse. Instead, we have presented both sets of figures as appropriate in the report.

OAR’s detailed draft comments agreed with the recommendations in this report,
with one exception. OAR intends to continue using the 1993 NTI as the baseline,
instead of implementing our recommendation to use the more reliable 1996 NTI as
the baseline for measuring progress under GPRA. Agency officials explained that if
EPA were to use the 1996 NTI as the baseline, it would not enable them to capture
the emissions reductions achieved by stationary and mobile source standards
implemented between 1993 and 1996. While we recognize this point, we continue to
believe that, due to the unreliability of the 1993 NTI, EPA should use the 1996 NTI
as the baseline.

As noted in our report, emissions estimating techniques have undergone continuous
change and improvement since the 1993 baseline was developed, and subsequent
inventories have been amassed quite differently, making comparison to the 1993
NTI much less reliable as a measure of GPRA progress as compared to the 1996
NTI. For example, only 3 States provided data for the 1993 baseline, while 36
States provided data for the 1996 inventory. Also, as discussed in our report,
significant uncertainties continue to hamper use of the 1993 NTI as a baseline. For
example, these uncertainties caused EPA recently to revise the 1993 baseline from
6.1 million tons to 7.2 million tons, more than an 18 percent increase. These revised
totals further substantiate our position that EPA is uncertain of its progress in
reducing emissions and needs to improve its measures of air toxics progress. We
agree that subsequent inventories have improved; however, EPA’s limited resources
may be better used in improving the 1996 NTI as a baseline in lieu of the 1993 NTI.
We continue to believe that, until ambient air toxics monitoring data is available to
replace emissions data, the best available baseline for measuring Agency progress
for GPRA purposes is the 1996 NTI.

With regard to ORD, officials of this office concurred with our draft report
recommendations, stated that the draft report was reasonable, and provided several



                                 21
detailed comments intended to sharpen the quality and accuracy of the report. These
changes were made.




                                22
                                 Chapter 3
           GPRA Measure Needs to Address Risk
                 of Air Toxics Exposure
           EPA currently measures progress in its Air Toxics Program by reporting on tonnage
           reductions of emissions for all 188 toxic air pollutants collectively but does not
           account for the varying levels of toxicity. This aggregate GPRA measure, although
           useful, does not provide EPA, Congress, and the public with information on the
           specific subset of air toxics that are the most dangerous to human health. Agency
           officials said that they see merit in adding a risk component to their GPRA
           reporting, and they recently began exploring possibilities of doing so. This
           supplemental risk measure would better enable EPA to track its progress in reducing
           those air toxics that are most harmful to human health and, in so doing, more closely
           meet the intent of GPRA.

EPA Needs to Supplement Emission Reduction Measure

           The emissions reduction measure is an important component of EPA’s Air Toxics
           Program. In addition to improving data, as discussed in Chapter 2, the measure
           needs to be supplemented with information related to toxicity or risk. The emission
           reduction measure alone cannot ensure risk reduction occurs, because it does not
           specify which emissions are being reduced or if those reduced are in fact the most
           harmful to human health. If the Agency continues to only measure total emission
           reductions without adding a risk component to its GPRA measure, there is limited
           assurance that EPA is maximizing its efforts to reduce risk because air toxic health
           risk reductions are not proportionate to the tonnage of emission reductions. For
           example, toluene and xylene emissions represent about 30 percent (2 million tons)
           of the total toxics emissions (6.1 million tons) in the 1993 baseline. However, if
           EPA were to eliminate toluene and xylene entirely, it would not result in as much of
           a reduction in risk to human health as would a similar tonnage reduction in benzene
           and formaldehyde, which are more harmful air toxics.

Risk-Based Information Already Exists

           Although much more needs to be learned about the health effects of various air
           toxics, we believe EPA has sufficient risk information to begin adding a risk-based
           component to its air toxics emissions reduction measure. To date, EPA has not
           included a risk element to its measure because Agency officials believe adequate
           risk data are not available. However, EPA has completed two efforts that should
           enable the Agency to stratify the 188 air toxics into several categories of risk and
           allow it to report on emission reductions for these specified subsets of air toxics.
           EPA’s Integrated Urban Strategy and a study on mobile air toxics emissions



                                            23
illustrate how EPA has already stratified some of the more prevalent and hazardous
air toxics.

Integrated Urban Strategy

The Clean Air Act directed EPA to identify at least 30 air toxics from emissions of
area sources that represented the greatest threat to public health, along with actions
the Agency is taking to reduce exposure. Further, the Act directs a reduction in
public health risks of not less than 75 percent in the incidence of cancer attributable
to area sources. In 1999, EPA identified 33 urban air toxics from major, area, and
mobile sources. Some of EPA’s emission estimation techniques included:
evaluating the health effects of the 188 air toxics; assessing air quality monitoring
data; reviewing existing studies; and producing a list of pollutants based on the
relative hazards they pose in urban areas while considering toxicity, emissions, and
related characteristics. EPA used three ranking methods to produce a final list of
priority urban air toxics:

•   Risk Assessment/Hazard Ranking Studies - Fourteen urban studies were
    reviewed, and results were sorted by pollutant and ranked numerically.
•   Cumulative Exposure Project - Modeled ambient concentrations of air toxics
    were compared to health benchmarks to estimate the level of toxic risk.
•   Exposure/Toxicity Indicators Ranking - Seven indices were prepared for the
    188 pollutants; each pollutant was numerically ranked within each index.

EPA is beginning to make efforts to prioritize the list of 188 air toxics. Using the
1999 NTI, for each air toxic, EPA has estimated the tons of emissions reduced and
then weighed each air toxic by health criteria. EPA officials stated that they plan to
conduct this analysis every 3 years to coincide with new emissions inventories.
Additionally, EPA plans to expand the National Air Toxics Assessment to include
each of the 188 air toxics for which the Agency has established health criteria. EPA
officials said utilizing these efforts, along with data collected from the air toxics
monitoring network, will enable the Agency to develop a relative risk ranking of the
most harmful air toxics. We believe that EPA could use this risk information to
stratify the 188 air toxics into several categories of risk and report under GPRA on
emission reductions for these specified subsets of air toxics, in addition to reporting
aggregate tonnage reductions for all toxic air pollutants collectively.

Mobile Air Toxics Effort

EPA developed a list of air toxics emitted from mobile sources by searching through
available databases and studies that speciated the emissions from motor vehicles and
their fuels. By comparing the list of air toxics to the toxicity information available
in EPA’s Integrated Risk Information System, EPA was able to identify 21 air toxics
that are possible, probable, or known human carcinogens. Thirteen of these 21 air
toxics were also identified as part of the 33 air toxics studied in the Integrated Urban
Strategy. Moreover, EPA routinely gathers more information on five mobile air

                                  24
                 toxics they consider the most dangerous: benzene; 1,3 butadiene; methyl tertiary
                 butyl ether (MTBE); formaldehyde; and acetaldehyde.


OMB Review of EPA’s Air Toxics Program Cited Similar Problems

                 As part of its efforts to review agencies’ implementation of GPRA, the Office of
                 Management and Budget (OMB) developed a rating tool6 to identify common
                 performance challenges found in Federal agency programs. Using this newly
                 created tool, in 2003 OMB evaluated EPA’s Air Toxics Program. OMB found that
                 the program’s purpose was clear and the management of the program good, but the
                 program had not been able to demonstrate that it was maximizing the program’s net
                 benefits. Furthermore, linkages were insufficient between annual performance goals
                 and the long-term performance goal of protecting 95 percent of the United States
                 population from unacceptable risks of cancer and other significant health problems
                 from air toxic emissions.

                 OMB’s evaluation rated the areas of program results and accountability as
                 “Results Not Demonstrated,” and cited the following concerns with EPA’s GPRA
                 goals and measures:

                      ....Although the long-term cancer reduction goal is clearly outcome-related,
                      “unacceptable risks” are not defined, the relationship between emissions
                      changes and actual health outcomes is not known because there are no
                      efficiency measures.....there are inadequate linkages between annual
                      performance and long-term goals that prevent it [EPA] from demonstrating its
                      impact on human health.....

                 OMB’s observations regarding EPA’s results measures are consistent with our
                 observations, particularly as they relate to measuring reductions in air toxics risk to
                 human health. In response to these findings, the Administration took measures to
                 implement OMB’s recommendations by requesting $7 million in increased funding
                 for the Air Toxics Program. The funding was to be for State grants involving
                 ambient air toxics monitoring that would help fill these data gaps. In addition, EPA
                 indicated it would focus on maximizing the program’s net benefits by minimizing
                 the cost of each harmful health effect avoided, and establishing better performance
                 measures. OMB plans to review EPA’s Air Toxics Program every year until
                 adequate results are demonstrated. According to Agency officials, it will be some
                 years before EPA has a national ambient air toxics monitoring network capable of
                 measuring air toxics in ambient air on a widespread basis. Until that time, the
                 Agency could improve its focus on health risk by stratifying the 188 air toxics into
                 several categories of risk for GPRA reporting.



         6
           Known as the Program Assessment Rating Tool, this Tool was created to make ratings more consistent,
 objective, and credible.

                                                       25
Conclusion

             EPA’s mission is to protect public health, not just to reduce emissions. As the EPA
             OIG and OMB have identified, there presently is insufficient linkage between health
             risk and tons of emissions reduced. As such, we believe EPA needs to add a risk
             component to its air toxics measure that will enable the Agency to better
             demonstrate that it is managing for results, as called for under GPRA.

Recommendation

             3-1.   We recommend that the Assistant Administrator for Air and Radiation
                    supplement the existing tonnage reduction measure of progress for the EPA
                    air toxics program with measures that address progress toward reductions in
                    human exposure and health risk.

Agency Comments and OIG Evaluation

             OAR officials commented that this chapter did not fully characterize the extent of
             the Agency’s efforts to collect data for prioritizing hazardous air pollutants as it
             relates to risk. We incorporated OAR officials’ comments as appropriate. However,
             because up to this time the Agency has not used this data to measure progress under
             GPRA by reporting on the varying levels of toxicity, we believe our
             recommendation is appropriate. ORD recommended changing the phrase “health
             risk component” to “reduction in human exposure and health risk” in
             Recommendation 3-1. We agreed, and have revised this recommendation
             accordingly.




                                             26
                                                                                       Appendix A

                   Details on Scope and Methodology
To assess the appropriateness of EPA’s current air toxics GPRA performance measure for assessing
progress towards achieving the air toxics objective, we reviewed documentation that pertained to
GPRA measures and objectives, including:

         •   The Government Performance and Results Act (GPRA) of 1993
         •   EPA’s Strategic Plans for 1997, 2000, and 2003
         •   EPA’s Fiscal 2003 Annual Plan
         •   EPA’s Fiscal 2002 Annual Report
         •   OMB’s Program Assessment Rating Tool Evaluation of EPA’s Air Toxics Program

To assess the accuracy and reliability of data supporting EPA’s air toxics GPRA performance
measure, we conducted interviews with EPA Regional, OAR, and ORD officials; researched
documents; and attended training in support of these efforts. Budget information was obtained
through the Office of the Chief Financial Officer and OAR’s Office of Transportation and Air
Quality.

We reviewed Section 112 of the Clean Air Act to understand EPA’s obligations to control and
reduce air toxics emissions.

To gain a better understanding of the history and development of the inventories, we reviewed EPA’s
documentation, which included:

         •   Development of the 1993 Baseline National Toxics Inventory
         •   Development of the 1996 National Toxics Inventory
         •   Development of the 1999 National Toxics Inventory
         •   Toxics Release Inventory requirements for reporting emissions
         •   Emissions efforts developed under MACT programs and rulemakings
         •   Both the models for on-road (MOBILE 5b and MOBILE 6) and the model for off-road
             mobile emissions (NONROAD).

To determine the possibility of requiring State and local agencies to report emissions, we researched
the Consolidated Emissions Reporting Rule.

To understand EPA’s guidance for implementing Quality Assurance/Quality Control procedures for
data and EPA’s effort to implement this guidance, we reviewed:

         •   EPA Order 5360.1
         •   EPA’s 1999 National Emission Inventory Preparation Plan
         •   EPA’s Emissions Inventory Improvement Program
         •   EPA’s Information Quality Guidelines
         •   The Challenge of Meeting New EPA Data Standards and Information Quality
             Guidelines in the Development of the 2002 NEI Point Source Data for HAPs

                                                 27
We researched documentation regarding the Integrated Risk Information System to determine how
this database is used in conjunction with the risk assessment phase of MACT standards. We also
reviewed the National-Scale Air Toxics Assessment for 1996.

Because the amount of emissions for the source category Other Mobile was minimal (17,000 tons),
we did not include that category in the scope of our evaluation. Types of sources in this category
include locomotive, aircraft, and commercial marine vessels.

Prior Coverage

        General Accounting Office

        •   Major Management Challenges and Program Risks - EPA (GAO-03-112), January 2003
        •   Few Agencies Reporting on the Completeness and Reliability of Performance Data
            (GAO-02-372), April 2002
        •   EPA Should Improve Oversight of Emissions Reporting by Large Facilities
            (GAO-01-46), April 2001
        •   EPA Faces Challenges in Developing Results-Oriented Performance Goals and
            Measures (GAO/RCED-00-77), April 2000
        •   Air Pollution - Limitations of EPA’s Motor Vehicle Emissions Model and Plans to
            Address Them (GAO/RCED-97-210), September 1997

        EPA OIG

        •   EPA’s Progress in Using the Government Performance and Results Act to Manage for
            Results (2001-B-000001), June 2001
        •   Emission Factor Development (6100306), September 1996




                                                28
                                                                                                                       Appendix B

  EPA’s Recent Update to the 1993 and 1996 Inventories
The three charts below show EPA’s estimates of air toxics emissions by major sector for the 1993,
1996, and 1999 NTI as of February 2004.




               Updated Emissions for the 1993, 1996 and 1999 NTIs
                                             (in millions of tons)



   Non-road                                 Non-road                                 Non-road

                 0.8
                                                       0.9                                      0.8
                 11.1%
                                                       18.0%           1.2                      15.7%            1.3
                                  2.7                                  24.0%                                     25.5%
         2.5                      37.5%
                                                                                        1.4
         34.7%                                   1.7                      1.2
                                                                                        27.5%                  1.6
                          1.2                    34.0%                    24.0%
                          16.7%                                                                                31.4%

  On-road                                                                         On-road
                                          On-road
                       1993                                     1996                                    1999

                  Total: 7.2                                 Total: 5.0                               Total: 5.1

                                    Major                     Area                Mobile




According to Agency officials, the use of updated models to estimate mobile source emissions
resulted in a significant change in the mobile emissions total. EPA decided that both the 1993
baseline and the 1996 NTI needed to be revised to reflect these updated models, and as such, the
inventory totals changed. For example,

C the 1993 baseline inventory increased from 6.1 million to 7.2 million tons.
C the 1996 inventory increased from 4.6 million to 5.0 million tons.

EPA had not previously reported the air toxics emissions inventory totals for the 1999 inventory,
which is now reported to be 5.1 million tons, or an increase of 500,000 tons above the previously
reported 4.6 million tons for the 1996 inventory. The Agency’s newly revised air toxics emissions
inventory totals indicate a decrease in overall emissions, from 7.2 million tons in 1993 to 5.0 million
tons in 1996. However, analysis of the new totals from the revised 1996 inventory (5.0 million) to
the new 1999 inventory (5.1 million) still shows an increase of 100,000 tons of air toxics emissions
from 1996 to 1999. These revised totals were provided in February 2004 after our field work was
completed. We did not verify the revised figures or independently determine the reasons for the

                                                                 29
changes. These revised numbers were not reflected in recent Agency reports to the Congress and the
public on EPA’s progress in reducing air toxics emissions, including:

C EPA’s FY 2003 Annual Report to the Congress and the President, which serves as the Agency’s
   program performance report as required by GPRA, which reported a 1993 baseline of 6 million
   tons in November 2003;

C EPA’s Latest Findings on National Air Quality: 2002 Status and Trends Report, which reported
   a 1993 baseline of 6.1 million tons and a 1996 inventory of 4.7 million tons in August 2003; and

C EPA’s Draft Report on the Environment 2003: Technical Document, which reported a 1993
   baseline of 6.11 million tons and a 1996 inventory of 4.67 million tons in June 2003.

EPA officials told us that they plan to include the revised totals in next year’s reports.




                                                   30
                                                                                    Appendix C



                                      Distribution

EPA Headquarters

Assistant Administrator for Air and Radiation (6101A)
Assistant Administrator for Research and Development (8101R)
Comptroller (2731A)
Agency Follow-up Official (2710A)
Agency Follow-up Coordinator (2724A)
Audit Follow-up Coordinator, Office of Air and Radiation (6102A)
Audit Follow-up Coordinator, Office of Research and Development (8102A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Public Affairs (1101A)
Director, Office of Air Quality Planning and Standards (C404-04)
Deputy Director, Office of Air Quality Planning and Standards (C404-04)
Director, Emissions Standards Division (C504-03)
Acting Director, Emissions, Monitoring and Analysis Division (C304-02)
Director, Office of Transportation and Air Quality (6401A)
Deputy Director, Office of Transportation and Air Quality (6401A)
Director, National Exposure Research Laboratory (MD-75)
Leader, Emission Inventory & Factors Group (C304-02)
National Exposure Research Laboratory Audit Liaison (MD-343-01)
Audit Liaison, Office of Air Quality Planning and Standards (C404-2)
Audit Liaison, Office of Research and Development (8102R)
Inspector General (2410)


EPA Regions

Regional Air Program Directors




                                              31
